APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(August 24, 2020) . . . . . . . . . . . . . App. 1
Appendix B Order Denying Motion to Dismiss for
Lack of Personal Jurisdiction and
Improper Venue in the United States
District Court Central District of California
(August 15, 2018) . . . . . . . . . . . . App. 47
Appendix C O r d e r
Denying
Motion for
Reconsideration; Order Granting
Motion to Certify Order for
Interlocutory Appeal in the United
States District Court Central District
of California
(September 24, 2018) . . . . . . . . . App. 52
Appendix D Order in the United States Court of
Appeals for the Ninth Circuit
(December 20, 2018) . . . . . . . . . . App. 56
Appendix E Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(November 2, 2020). . . . . . . . . . . App. 58
Appendix F Const i t u t i o n a l
a nd St a tut ory
Provisions Involved. . . . . . . . . . App. 60

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-56657
D.C. No. 2:17-cv-04446- DSF-PLA
[Filed: August 24, 2020]
_______________________________________
)
)
)
Plaintiff-Appellee, )
)
v.
)
)
TAREK OBAID,
)
)
Claimant-Appellant, )
)
CERTAIN RIGHTS TO AND
)
INTERESTS IN SHARES OF
)
SERIES D PREFERRED STOCK IN
)
PALANTIR TECHNOLOGIES,
)
)
Defendant.
)
_______________________________________)
UNITED STATES OF AMERICA,

OPINION

App. 2
Appeal from the United States District Court
for the Central District of California
Dale S. Fischer, District Judge, Presiding
Argued and Submitted September 11, 2019
Pasadena, California
Filed August 24, 2020
Before: Johnnie B. Rawlinson, Sandra S. Ikuta, and
Mark J. Bennett, Circuit Judges.
Opinion by Judge Rawlinson;
Dissent by Judge Ikuta
SUMMARY*
_________________________________________________
Personal Jurisdiction / In Rem Civil Forfeiture /
Venue
The panel affirmed the district court’s order denying
Tarek Obaid’s motion to dismiss for lack of personal
jurisdiction and for lack of proper venue a civil
forfeiture case involving Obaid’s shares of stock in
Palantir Technologies, a corporation with its principal
place of business in California.
Obaid is a citizen of Saudi Arabia who wired $2
million from his account in Switzerland to a bank in
California to purchase stock in Palantir. The
government filed this in rem civil forfeiture action
against Obaid’s Palantir shares. Obaid moved to
dismiss the forfeiture action, contending that in
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
personam jurisdiction over him was necessary to
adjudicate this in rem action, and the district court was
required to apply the minimum contacts standard to
determine whether he had sufficient contacts with the
forum.
The panel held that the United States Supreme
Court’s decision in Shaffer v. Heitner, 433 U.S. 186
(1977) (requiring the application of a minimum
contacts framework to each person who claims
ownership of property), addressed a quasi in rem
proceeding rather than a true in rem proceeding. The
panel held further that Tennessee Student Assistance
Corp. v. Hood, 541 U.S. 440 (2004), provided more
direct guidance for the issues before the panel. The
panel concluded that Hood supported its view that
Shaffer was limited to quasi in rem actions and did
extend to in rem actions, such as this one. The panel
held that the district court did not err when it
determined that the constitutional due process
requirements set forth in International Shoe Co. v.
Washington, 326 U.S. 310 (1945), were inapplicable to
this in rem action. In an in rem action, the focus for the
jurisdictional inquiry is the res, in this case Obaid’s
Palantir shares, rather than Obaid’s personal contacts
with the forum.
The panel held that venue was proper because
sufficient acts giving rise to the civil forfeiture occurred
in the Central District of California. The panel
concluded that the conspiratorial activity in the
Central District was sufficient to support venue given
the relatively low standard set forth in 28 U.S.C.
§ 1355. The panel also held that whether Obaid was

App. 4
involved in the conspiracy was immaterial to the venue
analysis.
Dissenting, Judge Ikuta wrote that the majority
erred in not applying Shaffer v. Heitner, and created a
split with two circuits that applied Shaffer and seven
circuits that expressly construed it to cover ordinary in
rem proceedings. Judge Ikuta would remand to the
district court to conduct the required minimum
contacts analysis.
COUNSEL
David B. Rivkin (argued), Jonathan R. Barr, Lee A.
Casey, Mark W. DeLaquil, Elizabeth Price Foley, and
Andrew M. Grossman, Baker Hostetler LLP,
Washington, D.C.; Jonathan B. New, Baker Hostetler
LLP, New York, New York; for Claimant-Appellant.
Joshua L. Sohn (argued), Trial Attorney; Woo S. Lee,
Deputy Chief; Deborah Connor, Chief; Money
Laundering and Asset Recovery Section, United States
Department of Justice, Washington, D.C.; L. Ashley
Aull, Chief, Criminal Appeals Section; Nicola T.
Hanna, United States Attorney; United States
Attorney’s Office, Los Angeles, California; for PlaintiffAppellee.
David L. Zifkin, Boies Schiller Flexner LLP, Santa
Monica, California; Matthew L. Schwartz, Boies
Schiller Flexner LLP, New York, New York; for Amicus
Curiae Qentas Holdings.

App. 5
OPINION
RAWLINSON, Circuit Judge:
Appellant-claimant Tarek Obaid (Obaid) appeals
the district court’s order denying his motion to dismiss
for lack of personal jurisdiction and for lack of proper
venue in this civil forfeiture case involving his shares
of stock in Palantir Technologies (Palantir), a
corporation with its principal place of business in
California. Reviewing de novo, we affirm the judgment
of the district court.
I. BACKGROUND
Obaid is a citizen of Saudi Arabia, who serves as the
chief executive officer of PetroSaudi International
(PSI), an oil and gas exploration company. In 2009, PSI
entered into a joint venture with 1Malaysia
Development Berhad (1MDB), an investment company
wholly-owned by the government of Malaysia. 1MDB
was created to pursue economic development for the
benefit of the Malaysian people. According to the
government, 1MDB was riddled with fraud from its
inception, as multiple individuals conspired to divert
and launder billions of dollars from the fund. From
2009 to 2011, 1MDB and PSI arranged for the
fraudulent transfer of more than $1 billion from 1MDB
to a Swiss bank account in the name of Good Star
Limited (Good Star Account). Jho Low, a Malaysian
national, was involved in the creation of 1MDB, and
laundered more than $400 million through the Good
Star Account into the United States. Low then used the
laundered funds to, among other things, purchase
luxury items and real estate.

App. 6
As the chief executive of PSI, Obaid allegedly
facilitated the 1MDB and PSI joint venture, including
by signing various documents to effectuate the
transfers of money into the Good Star Account.
Additionally, Obaid personally received $153 million
from the Good Star Account that was processed
through a bank account in New York and ultimately
sent to Obaid’s personal account in Switzerland.
Relevant to this appeal, Obaid wired $2 million from
his account in Switzerland to a bank in California to
purchase 2,500,000 shares of Series D preferred stock
in Palantir.1
As part of its efforts to recoup money fraudulently
obtained in the scheme, the government filed this in
rem civil forfeiture action against Obaid’s Palantir
shares. In a lengthy complaint, the government alleged
that the Palantir shares were forfeitable because they
were derived from proceeds traceable to the wire fraud
and money laundering scheme involving 1MDB and
PSI. Contemporaneous with the action brought against
Obaid’s Palantir shares, the government filed multiple
civil forfeiture suits seeking to reclaim assets such as
luxury hotels, yachts, certain movies rights, and
expensive real estate in Beverly Hills, connected to the
fraudulent scheme. However, it is unclear from the
complaint whether—and to what extent—Obaid
maintains an ownership interest in the additional

1

Because this is an in rem action, the defendant in this appeal is
property—the Series D Palantir shares. See United States v. 2,164
Watches, More or Less Bearing a Registered Trademark of Guess?,
Inc., 366 F.3d 767, 771 (9th Cir. 2004).

App. 7
assets being sought by the government in the related
civil forfeiture actions.
Obaid confirmed his ownership of the Palantir
shares and subsequently moved to dismiss the
forfeiture action, contending that the district court
lacked personal jurisdiction over him as the property
owner. Obaid also maintained that venue was improper
because the disputed res, i.e., the Palantir shares, was
not alleged to be located in the Central District of
California. The district court rejected Obaid’s argument
that personal jurisdiction over him was required to
adjudicate rights to the named property. And the
district court concluded that venue was proper in the
Central District, reasoning that civil forfeiture actions
may be brought in the district “in which any of the acts
or omissions giving rise to the forfeiture occurred.” In
the district court’s view, venue was proper because
multiple acts giving rise to the alleged conspiracy
occurred in the Central District.
Obaid moved for reconsideration of the district
court’s rulings and, in the alternative, to certify the
rulings for interlocutory appeal. The district court
denied the motion for reconsideration, but granted the
motion to certify its ruling for interlocutory appeal.
II. STANDARD OF REVIEW
A district court’s rulings on personal jurisdiction
and venue are reviewed de novo. See Myers v. Bennett
Law Offices, 238 F.3d 1068, 1071 (9th Cir. 2001).

App. 8
III. DISCUSSION
Obaid contends that the district court erred when it
denied his motion to dismiss for lack of personal
jurisdiction. According to Obaid, in personam
jurisdiction over him was necessary to adjudicate this
in rem forfeiture action, and the district court was
required to apply the minimum contacts standard
established by United States Supreme Court precedent
to determine whether he had sufficient contacts with
the forum. Applying that standard, Obaid asserts that
he lacked sufficient contacts with the forum to satisfy
due process requirements. Obaid also challenges the
district court’s determination that venue was proper in
the Central District.
A. In Personam Jurisdiction in an In Rem Action
Obaid urges us to conclude that the district court
erred when it held that the United States Supreme
Court’s decision in Shaffer v. Heitner, 433 U.S. 186
(1977) does not control the outcome of the jurisdiction
issue in this in rem civil forfeiture action. Obaid
maintains that Shaffer squarely stands for the
proposition that all assertions of jurisdiction—in rem,
quasi in rem, and in personam—must be evaluated
according to a minimum contacts standard.
Before delving into the issues in this case, it is
helpful to distinguish among the types of potential
jurisdiction in federal cases. “In personam jurisdiction,
simply stated, is the power of a court to enter judgment
against a person.” SEC v. Ross, 504 F.3d 1130, 1138
(9th Cir. 2007). By contrast, in rem jurisdiction is the
court’s power to adjudicate rights over property. See id.

App. 9
“Jurisdiction in rem is predicated on the fiction of
convenience that an item of property is a person
against whom suits can be filed and judgments
entered. . . .” United States v. Approximately $1.67
Million (US) in Cash, Stock & Other Valuable Assets,
513 F.3d 991, 996 (9th Cir. 2008) (citation and internal
quotation marks omitted). More nebulous is the concept
of quasi in rem jurisdiction:
A quasi in rem action is basically a
halfway house between in rem and in
personam jurisdiction. The action is not
really against the property; rather, the
action involves the assertion of a personal
claim against the defendant of the type
usually advanced in an in personam
action and the demand ordinarily is for a
money judgment, although in some
contexts the objective may be to
determine rights in certain property. The
basis for transforming the suit from one
in personam to an action against the
defendant’s property is the attachment or
garnishment of some or all of the property
the defendant may have in the
jurisdiction.
Ventura Packers, Inc. v. F/V JEANINE KATHLEEN,
424 F.3d 852, 860 n.4 (9th Cir. 2005), as amended
(citations and alteration omitted).
Fortunately, there is no dispute that the underlying
action is in rem because “[a] forfeiture action is in rem.”
$1.67 Million, 513 F.3d at 996 (citation omitted). The
Supreme Court recognizes a “sharp distinction between

App. 10
in rem civil forfeitures and in personam civil penalties
such as fines.” United States v. Ursery, 518 U.S. 267,
275 (1996). While a civil action to recover penalties is
similar to a criminal prosecution in that “it is the
wrongdoer in person who is proceeded against, in an in
rem forfeiture proceeding, it is the property which is
proceeded against.” Id. at 283 (citation, alteration, and
internal quotation marks omitted). Thus in a civil
forfeiture proceeding in rem, “jurisdiction [is]
dependent upon seizure of a physical object.” Id. at 277
(citation omitted). Here, the focus is on the district
court’s jurisdiction over the property in dispute, i.e.,
Obaid’s Palantir shares. See Ross, 504 F.3d at 1138.
To resolve this case we must decide which of two
cases is the more pertinent precedent. The first is
Shaffer, which involved a Delaware shareholder
derivative suit against Greyhound Corporation, as well
as its officers and directors. See 433 U.S. at 189–90. In
conjunction with his action, the plaintiff moved to
sequester the Delaware property—stock in Greyhound
Corporation—of the individual defendants. See id. at
190–91. Under Delaware law, the primary purpose of
“sequestration” was to use the property as a basis to
“compel the personal appearance of a nonresident
defendant to answer and defend a suit brought against
him in a court of equity.” Id. at 193 (citation omitted).
The individual defendants challenged the suit on
personal jurisdiction grounds, contending that they
lacked sufficient contacts with Delaware to satisfy the
jurisdictional requirements of International Shoe Co. v.
Washington, 326 U.S. 310 (1945). See Shaffer, 433 U.S.
at 192–93. The Delaware Supreme Court rejected the
defendants’ argument, holding that the quasi in rem

App. 11
jurisdiction was predicated “on the presence of capital
stock [in Delaware], not on prior contact by defendants
with this forum.” Id. at 195 (quoting Greyhound Corp.
v. Heitner, 361 A.2d 225, 229 (Del. 1976)).
The United States Supreme Court reversed the
ruling of the Delaware courts See id. In the Supreme
Court’s view, the same precepts that govern in
personam jurisdiction, “fair play and substantial
justice,” also applied in Shaffer because “judicial
jurisdiction over a thing, is a customary elliptical way
of referring to jurisdiction over the interests of persons
in a thing.” Id. at 207 (citation, footnote reference, and
internal quotation marks omitted). Logically, this
means that “in order to justify an exercise of
jurisdiction in rem, the basis for jurisdiction must be
sufficient to justify exercising jurisdiction over the
interests of persons in a thing.” Id. (footnote reference
and internal quotation marks omitted). “The standard
for determining whether an exercise of jurisdiction over
the interests of persons is consistent with the Due
Process Clause is the minimum-contacts standard
elucidated in International Shoe.” Id. The Supreme
Court thus concluded that “all assertions of state-court
jurisdiction must be evaluated according to the
standards set forth in International Shoe and its
progeny.” Id. at 212 (footnote reference omitted).
Left with this conclusion from Shaffer, one might
deduce that Obaid’s position carries the day. But not so
fast. Another Supreme Court decision, Tennessee
Student Assistance Corp. v. Hood, 541 U.S. 440 (2004),
decided some twenty-five years after Shaffer, has

App. 12
something to say about in rem jurisdiction and it does
not say the same thing that Shaffer seemingly says.
The Tennessee Student Assistance Corporation
(TSAC) is a government agency that administers
student assistance programs in the state of Tennessee.
See id. at 443. Among other things, TSAC guarantees
student loans to residents of Tennessee. See id. at 444.
Hood was one such resident, and she signed promissory
notes for loans guaranteed by TSAC. See id. Years after
receiving the loans, Hood filed a “no asset” bankruptcy
petition. She did not mention her student loans and
those debts were not included in her discharge. See id.
Hood then reopened her bankruptcy petition for the
limited purpose of seeking a discharge of her student
loans pursuant to the “undue hardship” provision of the
Bankruptcy Code. See id. TSAC was named as a
defendant. See id. at 445.
TSAC filed a motion to dismiss Hood’s complaint for
lack of jurisdiction, on the basis of the state’s sovereign
immunity under the Eleventh Amendment. See id. The
bankruptcy court, Sixth Circuit Bankruptcy Appellate
Panel, and the Sixth Circuit all agreed that states have
no immunity from suit in the bankruptcy context. See
id.
The Supreme Court granted certiorari and affirmed.
See id. at 443. Rather than addressing the “broader
question” of whether states have no immunity from
suit in the bankruptcy context, the Court addressed the
narrower question of whether discharge of a student
loan debt implicated Eleventh Amendment immunity.
See id. at 445. The Court’s answer to this question was
“no.” See id.

App. 13
To resolve this question, the Court first clarified
that “[t]he discharge of a debt by a bankruptcy court is
. . . an in rem proceeding and that [b]ankruptcy courts
have exclusive jurisdiction over a debtor’s property.” Id.
at 447 (citations omitted). The Court noted that its
precedent “has drawn a distinction between in rem and
in personam jurisdiction, even when the underlying
proceedings are, for the most part, identical.” Id. at
453. For the purpose of adjudicating the discharge
claim, the bankruptcy court’s “jurisdiction is premised
on the res, not on the persona.” Id. at 450. The Court
concluded that the case did not implicate the Eleventh
Amendment because the bankruptcy court’s in rem
jurisdiction “allows it to adjudicate the debtor’s
discharge claim without in personam jurisdiction over
the State.” Id. at 453 (citation omitted). “The
bankruptcy court’s in rem jurisdiction permits it to
determine all claims that anyone, whether named in
the action or not, has to the property or thing in
question. . . . Id. at 448 (citation, alteration, and
internal quotation marks omitted). This conclusion
follows because in an in rem action, “jurisdiction over
the person is irrelevant if the court has jurisdiction
over the property.” Id. (citation omitted). The Court
emphasized that Hood did not ask the bankruptcy
court to exercise personal jurisdiction; she simply
wanted “a determination of the dischargeability of her
debt.” Id. For that reason, the Eleventh Amendment
was not implicated and the denial of TSAC’s motion to
dismiss was upheld. See id. at 455.
Neither of these two cases is precisely on point.
Shaffer addressed a quasi in rem proceeding rather
than a true in rem proceeding. See Ventura Packers,

App. 14
424 F.3d at 860 n.4 (describing a quasi in rem
proceeding as “a halfway house between in rem and in
personam jurisdiction” with the “action not really
against the property” but more “a personal claim . . . of
the type usually advanced in an in personam action”).
As noted in Shaffer, the primary purpose of
sequestration was “not to secure possession of
property” but to “compel the personal appearance of a
nonresident defendant to answer and defend a suit
brought against him in a court of equity.” 433 U.S. at
193 (citation omitted). In other words, “the only role
played by the property [was] to provide the basis for
bringing the defendant into court.” Id. at 209 (footnote
reference omitted). Indeed, once the defendant made a
general appearance before the court, the res was
released. See id. at 193. Unlike in a true in rem
proceeding, the seized property “[was] not the subject
matter of [the] litigation, nor [was] the underlying
cause of action related to the property.” Id. at 213.
Thus, despite the Court’s reference to in rem
proceedings, it is apparent from its analysis that
Shaffer is limited to quasi in rem proceedings.2 There

2

See also James Weinstein, The Federal Common Law Origins of
Judicial Jurisdiction, 90 Va. L. Rev. 169, 246 & n.28 (2004) (“In
continuing the common law process that gave rise to the in rem
rules in the first place, the Court has, for a variety of reasons
(including forum state interest, history, and considerations of
individual fairness), decided that most of the traditional in rem
rules continue to square with its vision of how state judicial
authority should be allocated in our federal system. Only where
changed circumstances have rendered a traditional practice
outmoded and dysfunctional, as was the case with attachment
jurisdiction [in Shaffer], has the Court, in the best common law
tradition, declared the practice invalid.”).

App. 15
is no dispute that civil forfeiture does not involve the
quasi in rem proceedings contemplated by Shaffer, in
which the “action is not really against the property;
rather, the action involves the assertion of a personal
claim against the defendant of the type usually
advanced in an in personam action.” 4A C. Wright & A.
Miller, Federal Practice and Procedure § 1070 (4th ed.
2020).
This conclusion is supported by the failure of the
Court to expressly overrule its longstanding precedent
anchoring in rem jurisdiction to the presence of the res.
See, e.g., Republic Nat. Bank of Miami v. United States,
506 U.S. 80, 84 (1992) (“Certainly, it long has been
understood that a valid seizure of the res is a
prerequisite to the initiation of an in rem civil
forfeiture proceeding. . . .”) (citations omitted); see also
Kline v. Burke Constr. Co., 260 U.S. 226, 229 (1922)
(“Where the action is in rem the effect is to draw to the
federal court the possession or control, actual or
potential, of the res . . .”); Overby v. Gordon, 177 U.S.
214, 221 (1900) (“An essential characteristic of a
proceeding in rem is that there must be a res or
subject-matter upon which the court is to exercise its
jurisdiction. . . .”).
It would be “exceeding strange”3 if the Supreme
Court intended to eliminate the historical distinction
3

William Shakespeare, The Merchant of Venice, Act 1, Scene 1.
The dissent maintains that the Supreme Court “explicitly said”
that it was overruling decades of precedent governing in rem
jurisdiction. Dissenting Opinion, p.38–39. However, it is notable
that the dissent does not point to one in rem case that the Supreme
Court overruled in Shaffer.

App. 16
between in personam and in rem jurisdiction without
explicitly saying so. See United States v. Ten Thousand
Dollars, 860 F.2d 1511, 1513 (9th Cir. 1988) (applying
“traditional in rem principles” in a forfeiture action).4
We should not assume that the Supreme Court has
implicitly overruled its precedent. See Shalala v. Ill.
Council on Long Term Care, Inc., 529 U.S. 1, 18 (2000)
(“This Court does not normally overturn, or so
dramatically limit, earlier authority sub silentio. . . .”).
In our view, the more reasonable interpretation of
Shaffer limits it to the scenario presented to the
Court—a quasi in rem statutory scheme.
The Supreme Court evidently did not sweep away
traditional in rem principles in Shaffer, as it relied on
those same principles almost thirty years later in Hood
to conclude that “the bankruptcy court’s jurisdiction is
premised on the res, not on the persona.” Hood, 541
U.S. at 450. We are persuaded that Hood provides
more direct guidance for the issue we are called upon
to decide. Unlike in Shaffer, Hood involved a true in
rem case. In this case and in Hood, the res is the
subject of the action, not a substitute for the person
who is the subject of the action. See Shaffer, 433 U.S.
at 213 (explaining that the property was “not the
subject matter of this litigation”).
The dissent’s attempt to restrict Hood’s application
of traditional in rem principles to bankruptcy cases
where the absent party is the creditor, rather than the
debtor, is unpersuasive. The Court was clear that its

4

The dissent ignores this language in its citation of this case. See
Dissenting Opinion, p.40.

App. 17
jurisdiction was “premised on the res,” see Hood, 541
U.S. at 448, and that “jurisdiction over the person is
irrelevant if the court has jurisdiction over the
property.” Id. at 453 (citation omitted). Contrary to the
chara ct eri za tion in the dissent of our
“misunderstanding of the nature of bankruptcy
proceedings” and our misreading of Hood, Dissenting
Opinion, 34, we fully understand and faithfully apply
the statutory bankruptcy scheme as interpreted by the
Supreme Court in Hood. Under 28 U.S.C. § 1334(e),
bankruptcy courts have “exclusive jurisdiction of all the
property, wherever located, of the debtor as of the
commencement of such case, and of property of the
estate.” Thus, in rem bankruptcy jurisdiction
“essentially creates a fiction that the property—
regardless of actual location—is legally located within
the jurisdictional boundaries of the district in which
the court sits.” Beck v. Fort James Corp. (In re Crown
Vantage, Inc.), 421 F.3d 963, 971 (9th Cir. 2005)
(citation omitted) (emphasis in the original).5 The
jurisdictional statute here creates a similar legal
fiction, providing that a “forfeiture action or proceeding
may be brought in the district court for the district in
which any of the acts or omissions giving rise to the
forfeiture occurred,” even if the property is located in a
foreign country. 28 U.S.C. § 1355(b).

5

The dissent elides our reliance on this precedent, preferring to
reference only a treatise cited in Hood. See Dissenting Opinion,
p.36. The dissent’s only attempted response to the express
language in Hood is to seek to blunt its impact through resorting
to “context.” Id.

App. 18
The discharge of a debt by a bankruptcy court is “an
in rem proceeding.” Hood, 541 U.S. at 447. Although
the bankruptcy court’s discharge order “operat[es] as
an injunction to prohibit creditors from attempting to
collect or to recover the debt,” the court need not have
personal jurisdiction over the creditor. Id.6
If we adopt the broad reasoning of Shaffer
advocated by Obaid and the dissent, we would be
discarding a longstanding body of Supreme Court
authority. We hasten to add that we do not read Hood
as overruling or purporting to overrule Shaffer. Rather,
we conclude that each survives in its respective sphere:
Shaffer in the realm of quasi in rem jurisdiction and
Hood in the realm of in rem jurisdiction.7

6

The dissent states that “[n]othing in Hood suggests that a court
may exercise in rem jurisdiction without personal jurisdiction over
the owner of the res.” Dissenting Opinion, p. 36. But Hood is clear
that in rem jurisdiction is “premised on the res, not on the
persona”—this statement would make no sense if the personal
jurisdiction is also necessary. 541 U.S at 450. The “owner of the
res” is “persona” not “res.” In rem jurisdiction does not include an
additional personal jurisdiction requirement over the debtor: the
debtor filed the petition and 28 U.S.C. § 1334(e) provides the
bankruptcy court with “exclusive jurisdiction of all the property . . .
of the debtor . . . and of property of the estate.” In accordance with
traditional in rem principles, jurisdiction over property is all that
is required. See also United States v. Gurley, 434 F.3d 1064, 1068
(8th Cir. 2006) (holding that when the “government, as a creditor,
asserted a right to payment” through filing a proof of claim in
debtor’s bankruptcy proceeding, “there was no need to establish
personal jurisdiction over” the debtor “[b]ecause it was an in rem
proceeding”).
7

Contrary to the dissent’s unpersuasive reading of Hood, see
Dissenting Opinion, p.36, everything in Hood points to the court’s

App. 19
The dissent concedes that in the forty-plus years
since Shaffer was decided, no court has dismissed a
civil forfeiture action for lack of personal jurisdiction
over a claimant. See Dissenting Opinion, p.43 n.12. The
dissent attempts to minimize this fact by saying that
“this is to be expected.” See id. We beg to differ.
Generally, when the Supreme Court makes a sweeping
change in a fundamental legal theory, there is a
tsunami of reversals in the lower courts applying the
new precedent. One need only compare the legal
aftermath of the Supreme Court’s decision in Ashcroft
v. Iqbal, 556 U.S. 662 (2009), to make the point. Iqbal
redefined the pleading standards under Rule 8 of the
Federal Rules of Civil Procedure, see id. at 678–80, and
prompted a barrage of dismissals. See Daniel W.
Robertson, In Defense of Plausibility: Ashcroft v. Iqbal
and What the Plausibility Standard Really Means, 38
Pepp. L. Rev. 111, 140 (2010) (“In the few months since
the decision in Iqbal came down, it has resulted in the
dismissal of 1500 district court and 100 appellate court
cases, many if not most of which would probably have
survived; more dismissals are pending.”) (citation
omitted).
Nevertheless, we acknowledge that two of our sister
circuits have noted in passing that Shaffer requires a
minimum contacts analysis in an in rem proceeding. In
United States v. Batato, 833 F.3d 413 (4th Cir. 2016),
on which the dissent relies to support its reading of
Shaffer, the Fourth Circuit acknowledged that “Shaffer
provides only limited guidance as to how to proceed.”
in rem jurisdiction without regard to personal jurisdiction over the
owner of the res. See 541 U.S. at 447.

App. 20
Id. at 423. Contrary to the dissent’s contention that the
Court “applied” Shaffer to require satisfaction of
International Shoe in an in rem action, the Batato
panel “assume[d] without deciding that a traditional,
state-based minimum contacts approach is
appropriate” in a forfeiture action. Id. (footnote
reference omitted).8
Obaid also cites a Second Circuit case, LiButti v.
United States, 178 F.3d 114 (2d Cir. 1999), for the
proposition that “in rem jurisdiction cannot lie to
adjudicate ownership of shares owned by a nonresident . . . when the shareowner lacks minimum
contacts with the forum.” But the Second Circuit’s
holding was not as sweeping as Obaid contends.
LiButti involved litigation over the ownership of a
racehorse, “Devil His Due.” Id. at 116. When the IRS
issued a levy against the horse, contending that LiButti
owned it, his daughter brought a wrongful levy action,
claiming that she, not her father, was the owner. See
id. at 116–17. While the case was pending on appeal,
the daughter entered into a syndicate agreement
dividing ownership of the horse into shares, half of
which were sold to a third party. See id. at 117. When
the IRS ultimately prevailed on appeal, it sought
restitution for the full value of “Devil His Due” from
the daughter and the third party. Id. at 118. The
Second Circuit determined that the third party could
not be compelled to pay restitution because the court

8

Faced with these explicit statements from the Batato decision,
the dissent again falls back on “context” to spin its analysis.
Dissenting Opinion, p.40 n.9.

App. 21
had no personal or in rem jurisdiction under a
minimum-contacts analysis. See id. at 122–23.
Contrary to Obaid’s contention, the court did not
dismiss the in rem action for lack of jurisdiction—it
upheld the determination about the ownership of the
horse, notwithstanding any lack of jurisdiction over the
third party claimant. See id. at 120. The court simply
held that the third party could not be ordered to
reimburse the IRS. See id. at 122–23. 9
We are not persuaded by the lukewarm discussion
of Shaffer by the Fourth Circuit and the Second
Circuit. Neither are the other cases cited by the dissent
of sufficient persuasive value to undermine our
analysis of the Shaffer decision. For starters, not one of
the cases cited by the dissent involves a civil forfeiture
action, which is governed by a statute expressly
allowing a forfeiture action to be brought in any district
“in which any of the acts or omissions giving rise to the
forfeiture occurred,” even if the property “is located in
a foreign country.” 28 U.S.C. § 1355(b)(1)(A), (b)(2).
Consequently none of the cases, or the dissent for that
matter, grapples with the application of Shaffer to civil
forfeiture proceedings brought under a statute
conferring exclusive jurisdiction. A brief discussion of
each of the cases confirms this observation.
• Inland Credit Corp. v. M/T Bow Egret, 556 F.2d
756, 757 (5th Cir. 1977) - admiralty case brought
in rem against the vessel and in personam

9

The dissent once more resorts to analytic gyrations in an effort to
twist the Second Circuit decision to more closely mirror Shaffer.
See Dissenting Opinion, p.40 n.9.

App. 22
against the owner of the vessel. Cites Shaffer for
its “philosophy” without analysis and notes that
it was decided “in a quite different context”—but
did not apply Shaffer. Id. The dissent quotes an
order denying a petition for rehearing. The
underlying opinion expressly declined to address
the question: “We need not decide in the present
case whether the philosophical underpinnings of
the system of in rem jurisdiction in admiralty
have been critically shaken. . . .” 552 F.2d 1148,
1152 (5th Cir. 1977).
• Pickens v. Hess, 573 F.2d 380, 387 (6th Cir.
1978) - a case addressing in personam
jurisdiction. Cites Shaffer in a see also citation,
without analysis, to support the proposition that
the modern view of jurisdiction does not
“herald[] the eventual demise of all restrictions
on the personal jurisdiction of state courts.” Id.
(citation omitted).
• Lakeside Bridge & Steel Co. v. Mountain State
Const. Co., Inc., 597 F.2d 596, 600–02 (7th Cir.
1979) - a case addressing in personam
jurisdiction. Restates the holding of Shaffer,
without analysis, to support application of
International Shoe to the question of in
personam jurisdiction over a non-resident
defendant, not jurisdiction over a res.
Characterizes the Delaware court’s exercise of
jurisdiction as “in rem jurisdiction to sequester
shares of stock and stock options” even though
the action was quasi in rem. Id. at 601.

App. 23
• Salazar v. Atlantic Sun, 881 F.2d 73, 76, 80 (3d
Cir. 1989) - admiralty case. Distinguishes
Shaffer on the basis that Shaffer did not arise
“in the admiralty context,” and rejected a due
process claim raised by the owner. Id. at 76.
• Pittsburgh Terminal Corp. v. Mid Allegheny
Corp., 831 F.2d 522, 525 (4th Cir. 1987) - a case
addressing in personam jurisdiction. Recognizes
that International Shoe addresses in personam
jurisdiction and agrees with our interpretation
that in Shaffer, “the litigation there was not
related to the property [and] the only role played
by the property was to bring the defendants
before the court.” Id. at 526.
As stated previously, not one of the cited cases
purported to address civil forfeiture proceedings. Thus,
the dissent’s declaration of a circuit conflict is much
exaggerated, particularly in view of the lack of any
mention in Shaffer of overruling the legion of cases
embodying principles of in rem jurisdiction. And the
Supreme Court has continued to recognize in rem
jurisdiction predicated on presence of the res in civil
forfeiture proceedings post-Shaffer. See, e.g., Republic
Nat. Bank of Miami v. United States, 506 U.S. 80,
84–85 (1992). We are persuaded that Hood supports
our view that Shaffer is limited to quasi in rem actions
and does not extend to in rem actions. See Hood, 541
U.S. at 453 (noting the distinction in Supreme Court

App. 24
precedent between
jurisdiction).10

in

rem

and

in

personam

B. Venue
Under 28 U.S.C. § 1355(b)(1)(A), in a civil forfeiture
action venue is appropriate in “the district court for the
district in which any of the acts or omissions giving rise
to the forfeiture occurred.” The government emphasizes
that the words “any acts” encompass acts committed in
furtherance of the conspiracy. Obaid responds that this
interpretation is too broad. In contrast, he focuses on
the “giving rise to the forfeiture” language of section
1355. Under his interpretation, only a specific criminal
act that took place in the Central District, directly
implicating the Palantir shares, would establish venue.
We conclude that Obaid’s preferred interpretation
is much too narrow and ignores the antecedent
language in section 1355 permitting venue in the
10

The law review articles cited by the dissent—all of them
published before the Supreme Court’s decision in Hood—are
similarly unpersuasive on the issue of jurisdiction in forfeiture
proceedings. At best, commentators at the time confirmed that the
effect of Shaffer on in rem forfeiture proceedings is uncertain. See,
e.g., Andreas Lowenfeld, In Search of the Intangible: A Comment
on Shaffer v. Heitner, 53 N.Y.U.L. Rev. 102 (1978) (“The debate
goes on whether Shaffer v. Heitner really overruled Pennoyer v.
Neff [95 U.S. 714 (1878)], whether Seider v. Roth [216 N.E.2d 312
(N.Y. 1966)] can survive after Shaffer, [and] whether one can build
an effective structure to enforce judgments obtained in forum 1
against assets maintained in (or removed to) forum 2. . . .”); Angela
M. Bohmann, Applicability of Shaffer to Admiralty in Rem
Jurisdiction, 53 Tul. L. Rev. 135, 141 (1978–79); Kenneth G.
Whyburn, Attachment Jurisdiction After Shaffer v. Heitner, 32
Stan. L. Rev. 167, 167 n.1 (1979).

App. 25
district where “any acts” of the conspiracy occurred. 28
U.S.C. § 1355(b)(1)(A). His interpretation is also
inconsistent with the legislative history of section 1355.
The Congressional analysis of section 1355(b)(1)
explained that its enactment “would be a great
improvement over current law,” because the
government would no longer be compelled “to file
separate forfeiture actions in each district in which the
subject property is found.” 137 Cong. Rec. 31538 (Nov.
13, 1991). Contrary to Obaid’s assertion, section
1355(b)(1) broadened, not narrowed, the scope of civil
forfeiture suits “by providing that the court in the
district where the acts giving rise to the forfeiture
occurred has jurisdiction over the forfeiture action.” Id.
The threshold inquiry under section 1355 is
whether “sufficient acts . . . giving rise to the forfeiture”
took place in the Central District. $1.67 Million, 513
F.3d at 996. As alleged, the Palantir shares were
purchased using funds traceable to a $700 million
transfer to the Good Star Account as part of the 1MDB
scheme. Some of the alleged acts in furtherance of the
conspiracy were conducted in the Central District,
including expensive real estate purchases in Beverly
Hills, the financing of a motion picture, and the
purchase of the Palantir shares. Purchasing real estate
in Beverly Hills and shares of stock in Palantir are not
per se criminal acts. However, if the purchases were a
mechanism to launder proceeds in furtherance of the
1MDB scheme, “sufficient acts” giving rise to the
forfeiture occurred in the Central District, thus making
venue proper. See id. We thus conclude that the
conspiratorial activity in the Central District was
sufficient to support venue in that district, given “the

App. 26
relatively low standard set forth in section 1355.”
Batato, 833 F.3d at 420.
Finally, Obaid’s assertion that the actions of third
parties in the Central District (co-conspirators) cannot
serve as a proxy to establish venue based on his
conduct, misses the point. This civil forfeiture action is
not premised on Obaid’s conduct; rather, the action is
predicated on whether the Palantir shares, i.e., the res,
are traceable to the proceeds of a crime. See Ross, 504
F.3d at 1138. Accordingly, whether Obaid was involved
in the conspiracy is immaterial to the venue analysis.
IV. CONCLUSION
The Supreme Court decision in Hood supports our
conclusion that the district court did not err when it
determined that the constitutional due process
requirements set forth in International Shoe were
inapplicable to this in rem action. The Court’s decision
in Shaffer addressed quasi-in-rem actions rather than
in rem actions directed solely toward a res instead of
property seized as a substitute for the defendant. In an
in rem action, the focus for the jurisdictional inquiry is
the res, in this case Obaid’s Palantir shares, rather
than Obaid’s personal contacts with the forum.11
Finally, venue was proper because sufficient acts giving
rise to the civil forfeiture occurred in the Central
District.

11

Because we conclude that the district court correctly determined
that Shaffer did not extend to this in rem action, we do not address
whether Obaid had sufficient contacts with the forum as to satisfy
the constitutional due process requirements set forth in
International Shoe.

App. 27
AFFIRMED.
__________________________________________________
IKUTA, Circuit Judge, dissenting:
With one stroke, the majority has swept away
Shaffer v. Heitner, the Supreme Court’s landmark
decision ensuring that “traditional notions of fair play
and substantial justice” apply to all persons with
property subject to adjudication, regardless of the Latin
label attached to the proceeding. 433 U.S. 186, 212
(1977). Shaffer held that a court cannot extinguish a
person’s property rights unless it first obtains personal
jurisdiction over that person, and eliminated a 100year-old rule to the contrary as “fundamentally unfair.”
Id. Instead of applying Shaffer, the majority applies the
principles of in rem jurisdiction that Shaffer rejected as
lacking “substantial modern justification.” Id. In doing
so, the majority creates a split with two circuits that
have faithfully applied Shaffer and seven circuits that
have expressly construed it to cover ordinary in rem
proceedings. The majority’s attempt to bolster its
opinion with an irrelevant bankruptcy case, Tennessee
Student Assistance Corp. v. Hood, 541 U.S. 440 (2004),
is unavailing. Because Shaffer adopted a principle of
fairness and equity that the majority now ignores, I
dissent.
I
Obaid, a resident of Saudi Arabia and Switzerland,
purchased 2.5 million shares of stock in Palantir
Technologies Inc. by wiring funds to Palantir’s bank in
Northern California. Obaid states that the Palantir
stock certificate is currently held by a bank in

App. 28
Switzerland. Although the government argues that the
shares are deemed to be present in Delaware as a
matter of Delaware law, there is no dispute that the
shares are not in California.1
The government commenced a forfeiture action to
gain possession of the Palantir shares on the grounds
that Obaid had been engaged in a criminal conspiracy
and the Palantir shares were traceable to funds
indirectly linked to the conspiracy. The government
brought this suit in the Central District of California
based on a statute allowing a forfeiture action to be
brought where “any of the acts or omissions giving rise
to the forfeiture occurred,” even when the assets
subject to forfeiture are located in a foreign country. 28
U.S.C. § 1355(b)(1)(A), (b)(2). In this case, the specific
acts “giving rise to the forfeiture” that allegedly took
place in the Central District of California are vague.
According to the government, certain conspirators not
including Obaid, while engaged in a phase of the
alleged criminal conspiracy not involving Obaid, used
proceeds generated by the conspiracy to purchase
property in Beverly Hills and then sent emails abroad.
Over Obaid’s objections, the district court ruled it had
in rem jurisdiction over the Palantir shares, even
though it lacked personal jurisdiction over Obaid. This
interlocutory appeal followed.
1

For this reason, the majority’s suggestion that it is merely
honoring “the historical distinction between in personam and in
rem jurisdiction,” Maj. at 15, is incorrect. Whereas traditional in
rem principles gave courts jurisdiction “based on the court’s power
over property within its territory,” Shaffer, 433 U.S. at 199, there
is no dispute that Obaid’s Palantir shares are neither within the
court’s territory nor its control.

App. 29
II
Does a district court have jurisdiction over a
person’s property solely because alleged co-conspirators
took some actions within the court’s territorial
jurisdiction? Forty years ago, the Supreme Court
decisively said no—that jurisdiction over Obaid’s
property in such circumstances “is fundamentally
unfair to the defendant” and offends “[t]raditional
notions of fair play and substantial justice.” Shaffer,
433 U.S. at 212. Contrary to the majority’s efforts to
minimize Shaffer v. Heitner, this decision constituted
a dramatic shift in the Supreme Court’s jurisprudence.
A
In Shaffer, a plaintiff filed a shareholder derivative
suit in Delaware against a corporation and various
individual defendants, and at the same time obtained
an order sequestering the individual defendants’
Delaware property. Id. at 190–91. The defendants
argued that the sequestration order violated their due
process rights because they lacked sufficient contacts
with Delaware. Id. at 193. The Delaware court rejected
this argument, relying on a state statute that
authorized courts to sequester property in order to
compel the personal appearance of a nonresident
defendant; under this statute, the Delaware court had
quasi in rem jurisdiction. Id. at 193–94.
The Supreme Court reversed, and used the case as
a vehicle for radically reformulating the law of in rem
jurisdiction.
The Court first explained the historical roots of in
personam and in rem jurisdiction. Under “the century-

App. 30
old case of Pennoyer v. Neff,” a court’s authority was
based on its “power over either persons or property.”
Id. at 196, 199 (citing 95 U.S. 714 (1878)). If the court’s
jurisdiction was based on its authority over the person,
the court had “in personam” jurisdiction; if “based on
the court’s power over property within its territory,”
the court had “in rem” or “quasi in rem” jurisdiction. Id.
at 199. Although the Court recognized the difference
between judgments in rem and quasi in rem,2 that
distinction did not affect its analysis. The Court
explained that it would “for convenience generally use
the term ‘in rem’ in place of ‘in rem and quasi in rem.’”
Id. at 199 n.17.
Shaffer then described the development of in
personam jurisdiction. After Pennoyer, courts asserted
personal jurisdiction over a defendant when the
defendant was not present within the state only in
certain limited circumstances. Id. at 200–02. But
International Shoe Co. v. Washington dramatically
expanded jurisdiction over absent defendants. See id.
at 203–04 (citing International Shoe, 326 U.S. 310,

2

The Court explained:
A judgment in rem affects the interests of all persons in
designated property. A judgment quasi in rem affects the
interests of particular persons in designated property. The
latter is of two types. In one the plaintiff is seeking to
secure a pre-existing claim in the subject property and to
extinguish or establish the nonexistence of similar
interests of particular persons. In the other the plaintiff
seeks to apply what he concedes to be the property of the
defendant to the satisfaction of a claim against him.

Shaffer, 433 U.S. at 199 n.17.

App. 31
317–19 (1945)). Under International Shoe, due process
did not require the defendant’s presence. A defendant
“not present within the territory of the forum” could be
subject to a judgment in personam so long as he had
“certain minimum contacts with [the forum] such that
the maintenance of the suit does not offend traditional
notions of fair play and substantial justice.” Id. at 203
(quoting International Shoe, 326 U.S. at 316).
Accordingly, “the relationship among the defendant,
the forum, and the litigation, rather than the mutually
exclusive sovereignty of the States on which the rules
of Pennoyer rest, became the central concern of the
inquiry into personal jurisdiction.” Id. at 204.3
Shaffer then turned to the law of in rem
jurisdiction. The Court recognized that “[n]o equally
dramatic change [had] occurred in the law governing
jurisdiction in rem.” Id. at 205. But the Court stated it
intended to effect such a change, announcing that “the
time is ripe to consider whether the standard of
fairness and substantial justice set forth in
International Shoe should be held to govern actions in
rem as well as in personam.” Id. at 206.

3

International Shoe’s conclusion that personal jurisdiction must be
based on the relationship among the defendant, forum, and
litigation led to the development of two categories of personal
jurisdiction: (1) general jurisdiction, where defendants’ “affiliations
with the State are so continuous and systematic as to render them
essentially at home in the forum State,” and (2) specific
jurisdiction, where defendants’ “in-state activities” are “enough to
subject [them] to jurisdiction in that State’s tribunals with respect
to suits relating to that in-state activity.” Daimler AG v. Bauman,
571 U.S. 117, 126–27 (2014).

App. 32
Shaffer had no difficulty concluding that the answer
to this question was yes. According to the Court, “the
same test of ‘fair play and substantial justice’”
discussed in International Shoe should apply to
exercises of both in personam and in rem jurisdiction.
Id. at 207. This is because “[a]ll proceedings, like all
rights, are really against persons.” Id. at 207 n.22
(quoting Tyler v. Court of Registration, 175 Mass. 71,
76 (1900) (Holmes, C.J.)). The only functional
difference between an in rem and in personam
proceeding is “the number of persons affected.” Id.4
Therefore, going forward, any “exercise of jurisdiction
over the interests of persons” would have to meet “the
minimum-contacts standard elucidated in International
Shoe” in order to be “consistent with the Due Process
Clause.” Id. at 207. As with in personam jurisdiction,
“the relationship among the defendant, the forum, and
the litigation, rather than the mutually exclusive
sovereignty of the States on which the rules of
Pennoyer rest,” would determine whether a court has
in rem jurisdiction “over the interests of persons in a
thing.” Id. at 204, 207 (internal quotation marks
omitted).
Having announced the new rule governing in rem
jurisdiction, Shaffer considered and rejected the
arguments raised against such a change. Most
important, Shaffer brushed aside “the long history of
[in rem] jurisdiction based solely on the presence of
property in a State.” Id. at 211. The Court declared it

4

As discussed above, in personam proceedings impose personal
obligations on defendants, but in rem proceedings may affect all
persons with an interest in the property. Id. at 199 n.17.

App. 33
was not bound by precedent “supporting the
proposition that jurisdiction based solely on the
presence of property satisfies the demands of due
process.” Id. at 212. That obsolete idea had to be
rejected, because “‘[t]raditional notions of fair play and
substantial justice’ can be as readily offended by the
perpetuation of ancient forms that are no longer
justified as by the adoption of new procedures that are
inconsistent with the basic values of our constitutional
heritage.” Id. As to in rem jurisdiction in particular,
“[t]he fiction that an assertion of jurisdiction over
property is anything but an assertion of jurisdiction
over the owner of the property supports an ancient
form without substantial modern justification,” and
“[i]ts continued acceptance would serve only to allow
state-court jurisdiction that is fundamentally unfair to
the defendant.” Id.
Shaffer also rejected the argument that its
departure from precedent would eliminate jurisdiction
in too many cases. As the Court explained, “jurisdiction
over many types of actions which now are or might be
brought in rem would not be affected by a holding that
any assertion of state-court jurisdiction must satisfy
the International Shoe standard,” id. at 208, because
“the presence of property in a State may bear on the
existence of jurisdiction by providing contacts among
the forum State, the defendant, and the litigation,” id.
at 207. Where “claims to the property itself are the
source of the underlying controversy between the
plaintiff and the defendant, it would be unusual for the
State where the property is located not to have
jurisdiction.” Id.

App. 34
Encapsulating its rejection of 100 years of
precedent, the Court stated: “We therefore conclude
that all assertions of state-court jurisdiction must be
evaluated according to the standards set forth in
International Shoe and its progeny.” Id. at 212
(emphasis added). Applying its new rule to the facts
before it, the Court concluded that “Delaware’s
assertion of jurisdiction” was “inconsistent” with the
Due Process Clause. Id. at 216–17.
B
Shaffer is directly on point here. The government’s
forfeiture action against Obaid’s Palantir stock under
the civil forfeiture statute, 18 U.S.C. § 981(a)(1), is an
in rem proceeding. Under the statute, the government
“begins a judicial civil forfeiture action by filing an in
rem complaint against the property.” United States v.
$133,420.00 in U.S. Currency, 672 F.3d 629, 634 (9th
Cir. 2012). The district court then adjudicates the
interests of any persons claiming an ownership interest
in the property. 18 U.S.C. § 983(a)(4). If the
government prevails, title to the property vests in the
government. See United States v. Spahi, 177 F.3d 748,
754 (9th Cir. 1999) (citing United States v. 92 Buena
Vista Ave., 507 U.S. 111, 125 (1993)) (“under the
forfeiture statutes,” the United States “is required to
perfect title by legal action before title may vest.”).5

5

Although a forfeiture judgment under § 981 “relates back” to
when the offense was committed, see 18 U.S.C. § 981(f), “[w]here
there is no such judgment the government acquires no title or
interest in the property,” 1 David B. Smith, Prosecution and
Defense of Forfeiture Cases ¶ 3.05[2] (Matthew Bender). In other

App. 35
Under Shaffer, the district court’s jurisdiction over
the property subject to an in rem complaint constitutes
an “assertion of jurisdiction over the owner of the
property.” 433 U.S. at 212 (emphasis added).6
Therefore, Shaffer requires the district court to apply
the minimum contacts framework to each person who
claims ownership of the property. Id. Here, it is
undisputed that Obaid is the owner of the seized
Palantir shares. Under Shaffer, therefore, the district
court must consider whether Obaid has “minimum
contacts” with the forum such that “the maintenance of
the suit does not offend ‘traditional notions of fair play
and substantial justice.’” International Shoe, 326 U.S.
at 316. The district court did not address this question
of minimum contacts, and the answer is not obvious:
the government argues that Obaid has sufficient
contacts with the United States as a whole to confirm
the court’s jurisdiction under 28 U.S.C. § 1355(b), while
Obaid argues that the court must find that he has
sufficient contacts with California. We should remand
to the district court to address that question and
conduct the required minimum contacts analysis.
III
The majority acknowledges that “one might deduce”
from Shaffer that “Obaid’s position carries the day.”

words, a § 981 forfeiture proceeding adjudicates property not yet
owned by the government.
6

The conclusion that the court is asserting jurisdiction over Obaid
is particularly compelling where, as here, the court’s authority
over the res is merely a legal fiction: the Palantir shares are not
within either the territory or control of the district court.

App. 36
Maj. at 11. But the majority then concludes that the
Supreme Court undermined (or overturned) Shaffer’s
groundbreaking expansion of “fair play and substantial
justice” when it decided a subsequent bankruptcy case,
Tennessee Student Assistance Corp. v. Hood, 541 U.S.
440 (2004). According to the majority, Hood stands for
the proposition that a court may continue to assert
jurisdiction over the property rights of an absent owner
so long as it has in rem jurisdiction over the property
itself. Maj. at 12–13, 15.
The majority’s reading of Hood is incorrect because
it is based on a misunderstanding of the nature of
bankruptcy proceedings. In Hood, a debtor sought a
determination that her student loans were
dischargeable under 11 U.S.C. § 523(a)(8), which
provides that a bankruptcy court cannot discharge a
student loan guaranteed by a governmental unit unless
the court determines that allowing the debt to survive
would impose an “undue hardship” on the debtor. As
required by the Federal Rules of Bankruptcy
Procedure, the debtor filed a proceeding (styled as an
“adversary” action) against various government
guarantors, including the Tennessee Student
Assistance Corporation (TSAC), a state entity. Hood,
541 U.S. at 444–45, 451–52. TSAC moved to dismiss
the action, asserting sovereign immunity under the
Eleventh Amendment. Id. at 445. The Supreme Court
rejected TSAC’s argument, holding that a bankruptcy
court’s discharge of government-guaranteed student
loan debt under § 523(a)(8) does not implicate a state’s
Eleventh Amendment immunity. Id. at 450.

App. 37
The Supreme Court based this conclusion on the
nature of bankruptcy proceedings. In a “typical
voluntary bankruptcy proceeding,” the debtor invokes
the court’s jurisdiction by filing a petition for
bankruptcy. Id. at 447. The commencement of the
proceeding creates a bankruptcy estate consisting of
the debtor’s property interests. 11 U.S.C. § 541(a); see
also 1 Collier on Bankruptcy ¶ 3.01[4] (Richard Levin
& Henry J. Sommer eds., 16th ed.). The bankruptcy
court has jurisdiction over the debtor and the debtor’s
estate, Hood, 541 U.S. at 447, and creditors can
participate in the bankruptcy by filing a proof of claim,
11 U.S.C. §§ 501, 726. But the court does not adjudicate
the creditors’ property rights, see Hood, 541 U.S. at
447, and need not have jurisdiction over the creditors,
see id. at 453. At the close of the bankruptcy
proceeding, the bankruptcy court issues a discharge
order that “releases a debtor from personal liability
with respect to any discharged debt.” Id. at 447. This
proceeding is in rem, because it determines “all claims
that anyone, whether named in the action or not, has
to the property or thing in question.” Id. at 448.
Although a bankruptcy court does not exercise
personal jurisdiction over creditors, id. at 453, it is able
to provide the debtor with a fresh start from all debts
because “[a] federal court’s jurisdiction over the
dischargeability of debt . . . derives not from
jurisdiction over the state or other creditors, but rather
from jurisdiction over debtors and their estates.” Id. at
447–48 (quoting In re Collins, 173 F.3d 924, 929 (4th
Cir. 1999)). Of course, a bankruptcy court’s rulings may
affect creditors’ interests in the debtor’s property. For
example, a creditor’s debt may become uncollectible

App. 38
after a bankruptcy court discharges a debtors’ debts.
See 11 U.S.C. § 524(a). But this does not mean that the
court exercises jurisdiction over the creditor or the
creditor’s property. “A debtor does not seek monetary
damages or any affirmative relief from a [creditor] by
seeking to discharge a debt; nor does he subject an
unwilling [creditor] to a coercive judicial process. He
seeks only a discharge of his debts.” Hood, 541 U.S. at
450.
Hood applied these principles undergirding
bankruptcy jurisdiction to the question whether
bankruptcy proceedings could infringe a state’s
sovereign immunity when the state is a creditor. The
Court first noted that a state is treated like any other
creditor in bankruptcy, see, e.g., Gardner v. State of
New Jersey, 329 U.S. 565, 571, 573–75 (1947); Van
Huffel v. Harkelrode, 284 U.S. 225, 227–28 (1931), and
is therefore “bound by a bankruptcy court’s discharge
order no less than other creditors.” Hood, 541 U.S. at
448. Next, the Court concluded that because
bankruptcy proceedings do not adjudicate creditors’
property rights, the bankruptcy court’s “exercise of its
in rem jurisdiction to discharge a debt does not infringe
a State’s sovereignty,” and the court does not exercise
“jurisdiction over the State.” Id. at 448, 453.
Ignoring the difference between a creditor in a
bankruptcy case and a property owner in a forfeiture
action, the majority reads Hood as supporting
application of all “traditional in rem principles.” Maj. at
16. The majority’s sole support for this conclusion is
Hood’s cite to a civil procedure treatise and an
accompanying parenthetical stating that “jurisdiction

App. 39
over the person is irrelevant if the court has
jurisdiction over the property.” Hood, 541 U.S. at 453
(quoting 4A C. Wright & A. Miller, Federal Practice
and Procedure § 1070, pp. 280–81 (3d ed. 2002)). In
context, the parenthetical merely supports Hood’s
holding that a bankruptcy court’s in rem jurisdiction
over the debtor’s property is sufficient to resolve the
claims of all creditors (including a state) to that
property, and the court need not have jurisdiction over
the state to accomplish this goal. Id. Nothing in Hood
suggests that a court may exercise in rem jurisdiction
without personal jurisdiction over the owner of the res.
In sum, Hood did not resurrect the in rem
jurisdiction theory, rejected in Shaffer, that a court
may assert jurisdiction over an absent property owner
so long as it has jurisdiction over the property itself. To
the contrary, Hood did not mention or cite Shaffer and
held only that a bankruptcy court does not assert
jurisdiction over creditors because a bankruptcy
proceeding does not adjudicate their property interests.
Id. at 447. Because the debtor, not the creditor, owns
the property before a bankruptcy court, and the
bankruptcy court does not adjudicate the creditor’s
property rights, Hood had no occasion to address the
question whether a court with in rem jurisdiction over
property can adjudicate the rights of that property’s
absent owner.
As this description makes clear, Hood provides no
guidance here. Obaid is not a mere creditor. His rights
to the property he owns—the Palantir shares—are at
stake in the forfeiture proceeding. Nor is Obaid a
debtor who has voluntarily submitted himself and his

App. 40
property to the district court, obviating the need for
due process protections. Obaid is the person described
in Shaffer; the subject of a proceeding against his
property, and therefore against Obaid himself. 433 U.S.
at 207 n.22. Therefore, Hood gives the majority no
grounds for ignoring Shaffer.
IV
Although the majority recognizes that Hood is not
“precisely on point,” Maj. at 13, it provides other
reasons for ignoring Shaffer’s clear directive. These
reasons are equally misguided.
A
First, the majority tries to confine Shaffer to its
facts. Disregarding Shaffer’s statement that it was not
distinguishing between in rem and quasi in rem
jurisdiction, see 433 U.S. at 199 n.17, the majority
contends that Shaffer’s holding applies only to quasi in
rem proceedings, Maj. at 13–14, 15. According to the
majority, this reading is “supported by the failure of
the Court to expressly overrule its longstanding
precedent anchoring in rem jurisdiction to the presence
of the res.” Maj. at 14. Applying traditional in rem
principles, the majority contends that the defendant
here is the Palantir shares, not Obaid, and therefore
Shaffer’s “fair play and substantial justice”
requirements do not apply. Maj. at 15. 7

7

The majority also tries to distinguish Shaffer on the ground that
it does not apply to a civil forfeiture proceeding such as this one.
Maj. at 14, 20. But a civil forfeiture proceeding is an in rem
proceeding, and Shaffer stated that “all” assertions of in rem

App. 41
This reinterpretation of Shaffer contradicts
Shaffer’s actual language. The Court clearly
established a new rule for both in rem and quasi in rem
jurisdiction, concluding that “all assertions of statecourt jurisdiction must be evaluated according to the
standards set forth in International Shoe and its
progeny.” Shaffer, 433 U.S. at 212 (emphasis added).
Moreover, Shaffer did not ignore longstanding
precedent governing in rem jurisdiction. Rather, the
Court made clear that it was sweeping away “the
perpetuation of ancient forms that are no longer
justified.” Id. Indeed, the majority is right that the
Supreme Court has not overruled its precedent
governing in rem jurisdiction “without explicitly saying
so”—but only because the Supreme Court explicitly
said that is what it was doing. Maj. at 15.8 Shaffer’s

jurisdiction are subject to International Shoe’s minimum-contacts
test. 433 U.S. at 212. The majority has not explained why civil
forfeiture proceedings are exempt from Shaffer. Nor has the
government argued that civil forfeitures have unique
characteristics that place them outside Shaffer’s ambit. Indeed, at
least one circuit has applied Shaffer to a civil forfeiture proceeding.
See United States v. Batato, 833 F.3d 413, 423 (4th Cir. 2016);
infra footnote 9; cf. Maj. at 22 (asserting that the cases cited by the
dissent do not include cases applying Shaffer to civil forfeiture
proceedings.).
8

Shaffer could not be more clear:
“We are left, then, to consider the significance of the long
history of jurisdiction based solely on the presence of property
in a State. . . . This history must be considered as supporting
the proposition that jurisdiction based solely on the presence
of property satisfies the demands of due process, but it is not
decisive. . . . We therefore conclude that all assertions of state-

App. 42
language also refutes the majority’s claim that the suit
is against Obaid’s shares of stock, not Obaid himself.
Maj. at 15. Shaffer’s basic premise was that “[a]ll
proceedings, like all rights, are really against persons.”
433 U.S. at 207 n.22 (quoting Tyler, 175 Mass. at 76).
And “[a]n adverse judgment in rem directly affects the
property owner by divesting him of his rights in the
property before the court.” Id. at 206. Therefore, this
proceeding over Obaid’s stock is effectively a
proceeding against Obaid, and International Shoe’s due
process requirements apply.
B
Second, the majority makes strenuous efforts to
distinguish its narrow construction of Shaffer from the
decisions of other circuits that have faithfully recited
Shaffer’s holding. But even a brief review of the
relevant cases establishes that the majority’s
interpretation of Shaffer is contrary to our own
precedent and creates a circuit split.
We have long acknowledged that assertions of in
rem jurisdiction must satisfy International Shoe, “even
when the court’s jurisdiction is predicated on its control
over an item of property or res.” United States v. Ten
Thousand Dollars ($10,000.00) in U.S. Currency, 860
F.2d 1511, 1513 (9th Cir. 1988). Further, we have
recognized Shaffer’s ruling that “‘judicial jurisdiction
over a thing’ is a customary elliptical way of referring

court jurisdiction must be evaluated according to the
standards set forth in International Shoe and its progeny.”
433 U.S. at 211–12 (citations omitted).

App. 43
to jurisdiction over the interests of persons in a thing.”
Id. (quoting Shaffer, 433 U.S. at 207).
Our sister circuits have interpreted and applied
Shaffer the same way. In United States v. Batato, the
Fourth Circuit recited Shaffer’s conclusion that “in
order to justify an exercise of jurisdiction in rem, the
basis for jurisdiction must be sufficient to justify
exercising jurisdiction over the interests of persons in
a thing,” and applied “a traditional, state-based
minimum contacts approach” to determine whether it
had jurisdiction over claimants to property subject to a
civil forfeiture action. 833 F.3d 413, 423 (4th Cir. 2016)
(quoting Shaffer, 433 U.S. at 207).9 Similarly, the
Second Circuit acknowledged that Shaffer “explained
that to have in rem jurisdiction it is necessary, at the
very least, to satisfy the minimum contacts standard

9

The majority asserts that Batato did not follow Shaffer because
it “assume[d] without deciding” that Shaffer was applicable, and
stated that “Shaffer “provides only limited guidance as to how to
proceed.” Maj. at 18. This is incorrect, because the majority takes
these quotes out of context. Batato expressly acknowledged the
applicability of the minimum contacts test to in rem proceedings.
833 F.3d at 423. It then stated that Shaffer “provide[d] only
limited guidance as to how to proceed” regarding one aspect of that
minimum contacts test: whether a court must consider a foreign
property owner’s contacts with only the forum state, or with the
United States as a whole. Id. at 423 & n.3. But because the foreign
claimants had sufficient contacts with the forum state, Batato
could “assume without deciding” that the more demanding “statebased minimum contacts approach” controlled. Id. at 423. Batato
made clear that the court could not exercise in rem jurisdiction
without obtaining personal jurisdiction over the owner of the
property subject to civil forfeiture. In sum, nothing in Batato
suggests any reluctance to apply Shaffer.

App. 44
set out in International Shoe” and upheld the district
court’s conclusion that it lacked in rem jurisdiction over
a defendant that “did not have minimum contacts.”
LiButti v. United States, 178 F.3d 114, 123 (2d Cir.
1999).10 These faithful applications of Shaffer are
decisive holdings, not “lukewarm discussion[s].” Maj. at
20.
Other circuits have acknowledged the breadth of
Shaffer’s rule. Shortly after Shaffer was decided, the
Fifth, Sixth and Seventh Circuits correctly recited its
holding. See Inland Credit Corp. v. M/T Bow Egret,
556 F.2d 756, 757 (5th Cir. 1977) (denying a petition for
rehearing en banc and citing Shaffer’s holding that
“states’ assertion of in rem jurisdiction must satisfy the
same ‘minimum contacts standard’ applied to in
personam jurisdiction”); Pickens v. Hess, 573 F.2d 380,
387 (6th Cir. 1978) (citing Shaffer for the proposition
that “all claims of jurisdiction, both in personam and in
rem, must be evaluated in light of the standards of
International Shoe and its progeny”); Lakeside Bridge
& Steel Co. v. Mountain State Const. Co., Inc., 597 F.2d

10

The majority’s statement that Libutti “did not dismiss the in rem
action for lack of jurisdiction,” Maj. at 19, mischaracterizes the
case. For our purposes, the pertinent question in Libutti was
whether the district court could exercise jurisdiction over a third
party who had an ownership interest in a race horse. Libutti held
that the court did not have in personam jurisdiction over the third
party because the third party lacked minimum contacts with the
forum state, and “[s]ince [the third party] did not have minimum
contacts, the district court did not have in rem jurisdiction either.”
178 F.3d at 123. While Libutti upheld the trial court’s rulings with
regard to the defendant over which the court had jurisdiction, Maj.
at 19, this is irrelevant to our analysis.

App. 45
596, 600 (7th Cir. 1979) (stating, in its overview of in
rem jurisdiction, that “the principles of International
Shoe were held [in Shaffer] to govern assertion by a
state of In rem as well as In personam jurisdiction”).11
A decade later, the Third and Fourth Circuits cited
Shaffer for the same principle. See Salazar v. Atlantic
Sun, 881 F.2d 73, 76 (3d Cir. 1989) (noting that Shaffer
affected “traditional in rem procedures” by requiring
“the presence of a defendant’s minimum contacts with
the forum”); Pittsburgh Terminal Corp. v. Mid
Allegheny Corp., 831 F.2d 522, 526 (4th Cir. 1987)
(explaining that, after Shaffer, “the minimum contacts
rule of International Shoe would henceforth be applied

11

Scholars writing in Shaffer’s immediate aftermath expressed no
doubt as to whether Shaffer applied to in rem proceedings. See
Angela M. Bohmann, Applicability of Shaffer to Admiralty in Rem
Jurisdiction, 53 Tul. L. Rev. 135, 135 (1978–79) (“In its 1977
decision in Shaffer v. Heitner, the Supreme Court determined that
the due process clause of the Fourteenth Amendment required all
assertions of state court jurisdiction to be tested under the
principles established in its earlier decision in International Shoe
Co. v. Washington); see also, John R. Leathers, The First Two
Years After Shaffer v. Heitner, 40 La. L. Rev. 907, 910 (1980);
Stefan A. Riesenfeld, Shaffer v. Heitner: Holding, Implications,
Forebodings, 30 Hast. L.J. 1183, 1204 n.100 (1979); Joseph J. Kalo,
Jurisdiction as an Evolutionary Process: The Development of Quasi
in Rem and In Personam Principles, 1978 Duke L.J. 1147, 1189–90
(1978); Linda J. Silberman, Shaffer v. Heitner: The End of an Era,
58 N.Y.U. L. Rev. 33, 62–63 (1978); William R. Slomanson, Real
Property Unrelated to Claim: Due Process for Quasi in Rem
Jurisdiction?, 83 Dick. L. Rev. 51, 54 (1978); Joseph P. Zammitt,
Reflections on Shaffer v. Heitner, 5 Hast. Const. L.Q. 15, 17 (1978);
Donald W. Fyr, Shaffer v. Heitner: The Supreme Court’s Latest
Last Words on State Court Jurisdiction, 26 Emory L.J. 739,
757–78, 762–64 (1977).

App. 46
to actions in rem and quasi in rem, as well as to actions
in personam”).
Against this consensus, the majority’s erroneous
interpretation of Shaffer stands alone.12
V
Shaffer effected a transformation of the law of in
rem jurisdiction in order to ensure that “fair play and
substantial justice” prevail. In doing so, the Supreme
Court was well aware that it was sweeping aside a
century of jurisprudence which had allowed courts to
adjudicate rights to property even when doing so ran
roughshod over the rights of the persons who owned
the property. By attempting to confine Shaffer to its
facts, the majority turns its back on the Court’s
protection of due process rights and creates a conflict
with every circuit court that has addressed this issue.
I dissent from the majority’s failure to follow the
Supreme Court’s clear instructions.

12

While the majority notes that “no court has dismissed a civil
forfeiture action for lack of personal jurisdiction over a claimant,”
Maj. at 18, this is to be expected because a person with property in
a state is likely to have enough contacts with that state to satisfy
Shaffer, see 433 U.S. at 207–08. Shaffer itself predicted “that
jurisdiction over many types of actions which now are or might be
brought in rem would not be affected by a holding that any
assertion of state-court jurisdiction must satisfy the International
Shoe standard.” Id. at 208.

App. 47

APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV 17-4446 DSF (PLAx)
[Filed: August 15, 2018]
______________________________
UNITED STATES OF
)
AMERICA,
)
Plaintiff,
)
)
v.
)
)
CERTAIN RIGHTS TO AND
)
INTERESTS IN SHARES OF )
SERIES D PREFERRED
)
STOCK IN PALANTIR
)
TECHNOLOGIES,
)
________Defendant.___________ )
Order DENYING Motion to Dismiss for Lack of
Personal Jurisdiction and Improper Venue (Dkt. 45)
Claimant Tarek Obaid has moved to dismiss the
government’s forfeiture complaint against certain stock
in Palantir Technologies for lack of personal
jurisdiction and improper venue. The Court deems this
matter appropriate for decision without oral argument.
See Fed. R. Civ. P. 78; Local Rule 7-15. The hearing set
for August 20, 2018 is removed from the Court’s
calendar.

App. 48
The Court rejects Obaid’s argument that it needs in
personam jurisdiction over him in order to adjudicate
rights to the property. Obaid cites no authority holding
that a court must have in personam jurisdiction over
any particular claimant in a civil forfeiture action.
While it may include language that appears to support
Obaid’s argument, Shaffer v. Heitner, 433 U.S. 186
(1977), does not control the issue. Shaffer was a quasi
in rem action where the stated objection of proceeding
against particular property was to coerce a targeted
defendant into appearing in a forum where there would
otherwise not be personal jurisdiction. Obaid tries to
stretch Shaffer’s quasi in rem holding onto any type of
case where property is an in rem defendant. The only
appellate court case to specifically consider the issue
here correctly noted that Shaffer “provides only limited
guidance as to how to proceed.” United States v.
Batato, 833 F.3d 413, 423 (4th Cir. 2016).1 In addition,
the Supreme Court itself has discouraged a broad
reading of Shaffer. See Burnham v. Superior Ct., 495
U.S. 604, 620 (1990) (“[Schaffer] stands for nothing
more than the proposition that when the ‘minimum
contact’ that is the substitute for physical presence
consists of property ownership it must, like other
minimum contacts, be related to the litigation.”). It has
also reaffirmed a distinction between in rem and in
personam jurisdiction in the Eleventh Amendment
context, “even when the underlying proceedings are, for
1

The appellate case that is arguably most supportive of Obaid’s
position, Harrods Ltd. v. Sixty Internet Domain Names, 302 F.3d
214 (4th Cir. 2002), was, like Batato, out of the Fourth Circuit.
Given the discussion in Batato, the Fourth Circuit itself obviously
does not think that Harrods answers the question.

App. 49
the most part, identical.” Tennessee Student Assistance
Corp. v. Hood, 541 U.S. 440, 453 (2004). Hood is
especially instructive because it involved the
jurisdiction of a bankruptcy court to adjudicate claims
to property in the absence of in personam jurisdiction
over a claimant, a situation closely analogous to the
one here.2 The Supreme Court had little difficulty
concluding that “the Bankruptcy Court’s in rem
jurisdiction allows it to adjudicate the debtor’s
discharge claim without in personam jurisdiction over
the State [claimant].” Id.
Venue is also proper here. The civil forfeiture venue
provision provides for venue “in the district court for
the district in which any of the acts or omissions giving
rise to the forfeiture occurred.” 28 U.S.C.
§ 1355(b)(1)(A). In interpreting this language, it is
important to consider the context of the overall
allegations that the government believes justify the
forfeiture. In the context of the broad conspiracy
alleged here, “any act” should be interpreted as any act
of the conspiracy, not necessarily any act directly
relating to the property at issue. It is even less
supportable to argue that the act in question must
relate to a particular claimant, as Obaid occasionally
seems to suggest. The complaint alleges at least one
meeting in support of the conspiracy took place in Los
Angeles, Compl. ¶¶ 203-204, and that significant
proceeds of the conspiracy were funneled into property
within the Central District of California, id. ¶¶ 466-79;

2

In Hood, the claimant at issue was a state agency over which the
bankruptcy court arguably had no in personam jurisdiction due to
the Eleventh Amendment.

App. 50
480-96; 525-32; 660-64; 681; 731-50. The Complaint
also alleges that “Singapore Banker 1" took steps in
creating the Aabar-BVI Swiss Account via e-mail while
physically present in Los Angeles. Id. ¶¶ 203-204. That
email included the allegedly false explanation for the
account’s funding to justify BSI Bank’s involvement in
the transactions involving the account. Id. The timing
of the e-mail in relation to Singapore Banker 1's
meeting with Jho Low also suggests that the account
was a topic at the contemporaneous meeting between
the two in Los Angeles. All of these acts are part of the
acts giving rise to the forfeiture and make venue in this
District proper.
Obaid tries to define “any act” to mean only criminal
acts that generated the proceeds used to purchase the
given property. While it is possible to interpret acts
“giving rise to the forfeiture” as being only acts that
are, of themselves, criminal, criminal conspirators
typically engage in many acts that are not necessarily
themselves criminal but yet further the conspiracy in
some way. The complaint alleges a wide-ranging money
laundering conspiracy whose aim was to steal money
from the Malaysian government, funnel that money
through various channels, and then place the money in
investments around the world. Several acts in support
of that conspiracy took place in the Central District of
California, so venue is appropriate here for any
forfeiture relating to the conspiracy.
The motion to dismiss is DENIED.
IT IS SO ORDERED.

App. 51
Date: 8/15/18
/s/ Dale S. Fischer
Dale S. Fischer
United States District Judge

App. 52

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV 17-4446 DSF (PLAx)
[Filed: September 24, 2018]
______________________________
UNITED STATES OF
)
AMERICA,
)
Plaintiff,
)
)
v.
)
)
CERTAIN RIGHTS TO AND
)
INTERESTS IN SHARES OF )
SERIES D PREFERRED
)
STOCK IN PALANTIR
)
TECHNOLOGIES,
)
________Defendant.___________ )
Order DENYING Motion for Reconsideration; Order
GRANTING Motion to Certify Order for
Interlocutory Appeal (Dkt. 76)
Claimant Tarek Obaid moves for reconsideration of
the Court’s August 30, 2018 order denying his motion
to dismiss for lack of personal jurisdiction and lack of
venue. In the alternative, Obaid moves for certification
of the order for interlocutory appeal. The Court deems
this matter appropriate for decision without oral
argument. See Fed. R. Civ. P. 78; Local Rule 7-15. The

App. 53
hearing set for October 1, 2018 is removed from the
Court’s calendar.
The motion for reconsideration is denied, if for no
other reason, because Obaid makes no attempt to
satisfy the requirements of Local Rule 7-18. While
there may be unusual instances where a motion for
reconsideration should be entertained even though the
moving party cannot satisfy L.R. 7-18, the current
motion is a very run-of-the-mill, “the court got it
wrong” style motion for reconsideration. These motions
are exactly what L.R. 7-18 is designed to govern.
Even putting aside L.R. 7-18, Obaid would not
succeed on a motion for reconsideration. Obaid did not
raise a personal jurisdiction argument with respect to
the res in his moving brief. Even in Obaid’s original
reply, the issue of personal jurisdiction over the res
itself seems to be limited to a passing, and incorrect,
argument that because the res is not in this District,
this Court has no personal jurisdiction over it. If other
arguments in the reply were intended to be directed to
personal jurisdiction over the res, that is certainly not
clear.
Obaid’s venue arguments are a recitation of
arguments Obaid either could have or should have
raised in the original briefing. There is no reason to
revisit the issue.
However, certification of the
interlocutory appeal is appropriate.

matter

When a district judge, in making in a civil
action an order not otherwise appealable
under this section, shall be of the opinion

for

App. 54
that such order involves a controlling
question of law as to which there is
substantial ground for difference of
opinion and that an immediate appeal
from the order may materially advance
the ultimate termination of the litigation,
he shall so state in writing in such order.
28 U.S.C. § 1292(b).
The Court has little doubt that the venue question
should be certified for interlocutory appeal. There is a
substantial ground for disagreement whether venue is
proper in this District. The language “any of the acts or
omissions giving rise to the forfeiture” in 28 U.S.C.
§ 1355(b)(1)(A) does not clearly answer the problem of
venue over properties involved in large multifaceted
money laundering conspiracies. Is the fact that the
property at issue was purchased using laundered funds
sufficient for venue in any district where an act in
furtherance of the money laundering conspiracy took
place? This is an especially difficult question where, as
here, the act(s) within the district took place in a
different “branch” of the conspiracy. That is, the
question is much easier if there is a direct path
between the act within the district and the purchase of
the res – i.e., the act within the district acquired the
money eventually used to purchase the property. The
question is less clear if, as appears to be the case here,
the res was purchased using funds that, while proceeds
of the same conspiracy, were not acquired directly
through acts within the district.
The personal jurisdiction question is closer, but the
Court also agrees that substantial questions on

App. 55
controlling law are present. While the Court agrees
with the government that Shaffer v. Heitner, 433 U.S.
186 (1977), does not require a showing of personal
jurisdiction over a claimant in a civil forfeiture case,
the language and reasoning of Shaffer certainly suggest
that it might. The Court of Appeals may, of course,
decline to entertain this question, see 28 U.S.C.
§ 1292(b), but the Court will give Obaid the chance to
raise it on interlocutory appeal.
Resolution of these questions would materially
advance the termination of the litigation if Obaid were
to be successful because there would potentially be no
venue or jurisdiction over the matter in this Court.
Further, numerous related civil forfeiture actions
pending before this Court raise the same or similar
issues. It would be much more efficient to have a
definitive ruling on jurisdiction and venue prior to
proceeding with the civil forfeiture cases. The case is
also well-suited for interlocutory appeal because it is
already stayed indefinitely pending resolution of the
related criminal investigation.
The motion for reconsideration is DENIED. The
motion to certify the order for interlocutory appeal is
GRANTED. The government is to provide notice of this
order to all claimants in the related 1MDB civil
forfeiture cases pending in this Court.
IT IS SO ORDERED.
Date: 9/24/18
/s/ Dale S. Fischer
Dale S. Fischer
United States District Judge

App. 56

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-80128
D.C. No. 2:17-cv-04446-DSF-PLA
Central District of California, Los Angeles
[Filed: December 20, 2018]
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff-Respondent,
)
)
TAREK OBAID,
)
)
Claimant-Petitioner,
)
)
v.
)
)
CERTAIN RIGHTS TO AND INTERESTS )
IN SHARES OF SERIES D PREFERRED
)
STOCK IN PALANTIR TECHNOLOGIES, )
)
Defendant.
)
__________________________________________)
ORDER

App. 57
Before: LEAVY and HURWITZ, Circuit Judges.
The petition for permission to appeal pursuant to 28
U.S.C. § 1292(b) is granted. Within 14 days after the
date of this order, petitioner shall perfect the appeal in
accordance with Federal Rule of Appellate Procedure
5(d).

App. 58

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-56657
D.C. No. 2:17-cv-04446-DSF-PLA
Central District of California, Los Angeles
[Filed: November 2, 2020]
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
TAREK OBAID,
)
)
Claimant-Appellant,
)
)
CERTAIN RIGHTS TO AND INTERESTS )
IN SHARES OF SERIES D PREFERRED
)
STOCK IN PALANTIR TECHNOLOGIES, )
)
Defendant.
)
__________________________________________)
ORDER
Before: RAWLINSON, IKUTA, and BENNETT, Circuit
Judges.

App. 59
Judges Rawlinson and Bennett voted to deny, and
Judge Ikuta voted to grant, the Petition for Rehearing
En Banc.
The full court has been advised of the Petition for
Rehearing En Banc and no judge of the court has
requested a vote.
Claimant-Appellant’s Petition for Rehearing En
Banc, filed October 8, 2020, is DENIED.

App. 60

APPENDIX F
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
28 U.S. Code § 1355 - Fine, penalty or forfeiture
(a) The district courts shall have original jurisdiction,
exclusive of the courts of the States, of any action or
proceeding for the recovery or enforcement of any fine,
penalty, or forfeiture, pecuniary or otherwise, incurred
under any Act of Congress, except matters within the
jurisdiction of the Court of International Trade under
section 1582 of this title.
(b)
(1) A forfeiture action or proceeding may be brought
in—
(A) the district court for the district in which any
of the acts or omissions giving rise to the
forfeiture occurred, or
(B) any other district where venue for the
forfeiture action or proceeding is specifically
provided for in section 1395 of this title or any
other statute.
(2) Whenever property subject to forfeiture under
the laws of the United States is located in a foreign
country, or has been detained or seized pursuant to
legal process or competent authority of a foreign
government, an action or proceeding for forfeiture

App. 61
may be brought as provided in paragraph (1), or in
the United States District court [1] for the District
of Columbia.
(c) In any case in which a final order disposing of
property in a civil forfeiture action or proceeding is
appealed, removal of the property by the prevailing
party shall not deprive the court of jurisdiction. Upon
motion of the appealing party, the district court or the
court of appeals shall issue any order necessary to
preserve the right of the appealing party to the full
value of the property at issue, including a stay of the
judgment of the district court pending appeal or
requiring the prevailing party to post an appeal bond.
(d) Any court with jurisdiction over a forfeiture action
pursuant to subsection (b) may issue and cause to be
served in any other district such process as may be
required to bring before the court the property that is
the subject of the forfeiture action.
U.S. Constitution Fifth Amendment
Fifth Amendment
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due

App. 62
process of law; nor shall private property be taken for
public use, without just compensation.

